      NATIONAL RAILROAD
      PASSENGER CORPORATION
                                          Office of Inspector General



Memorandum
To:            Jeff Martin, Chief Logistics Officer



From:          David Warren, Assistant Inspector General, Audits

Date:          April 12, 2012

Subject:       Engagement Memo: Survey of Capabilities, Capacity, and Training of
               Contracting Agents and Contracting Official’s Technical Representatives


The Amtrak FY2012–2016 Five-Year Financial Plan outlines the company’s strategy for
investing in infrastructure and fleet acquisitions to maintain a “state of good repair.” To
meet Amtrak’s procurement demands, the Procurement and Materials Management
Department must have acquisition and contracting workforce planning and training
programs. Therefore, the Office of Inspector General is initiating a survey of Amtrak
Procurement and Materials Management’s identification and development of the skills
of contracting agents and contracting officials’ technical representatives. The primary
objectives of the survey will be to assess the adequacy of Amtrak’s
      workforce planning program to develop the capabilities and capacity of its
      personnel responsible for acquisitions and contracts, and
      training and qualifications requirements for acquisition and contract management
      personnel.

During the survey, we plan to interview Amtrak personnel, particularly from the
Procurement, Engineering, Finance, Human Resources, and Law departments. Requests
for documents will be made as the survey work progresses. We will work to minimize
disruption by coordinating interviews and observations with staff in advance.
                                                                                         2


We will keep you advised of the status of our work and any material changes in our
survey objectives. We will perform our survey work in accordance with generally
accepted government auditing standards. To initiate the survey, we will coordinate the
entrance conference in the coming weeks with Jessica Scritchfield, Senior Director,
Internal Controls/Audit.

Cheryl Chambers of our Philadelphia staff will be the audit manager for this project and
will report to Matt Simber, Senior Director, Eastern Region. If you have any questions,
please contact me at 202.906.4742 or by e-mail at David.Warren@amtrakoig.gov; or Matt
Simber at 215.349.1077 or by e-mail at Matt.Simber@amtrakoig.gov. Thank you in
advance for your cooperation.



cc:   Gordon Hutchinson, Acting Chief Financial Officer
      William Herrmann, Managing Deputy General Counsel
      Bernard Reynolds, Deputy Chief Logistics Officer
      Jessica Scritchfield, Senior Director, Internal Controls/Audit
      Melantha Paige, Senior Audit Liaison
